                                                                                  AUDIT REPORT
                                                                           Issue Date: March 2, 1998
                                                                           Number: 8-7-H-008-010


To:	            J. Larry Wilson
                Chief Financial Officer

                Lawrence E. Barrett
                Chief Information Officer




From:           Peter L. McClintock
                Assistant Inspector General for Auditing

Subject:        Audit of SBA’s FY 1997 Financial Statements

        Pursuant to the Chief Financial Officers Act of 1990, attached is the Independent Auditor’s Report
(Attachment 1) issued by Cotton & Company., CPAs. They concluded that the financial statements
present fairly, in all material respects, the financial position of SBA as of September 30, 1997, and 1996,
and the results of operations and changes in net position for the years then ended in accordance with
Federally prescribed accounting principles.

         The section on SBA’s internal control structure discusses problems related to (1) subsidy
modeling and re-estimating process, (2) financial reporting process, and (3) information system controls.
The section on compliance with laws and regulations indicates SBA’s financial management system was
not in compliance with the requirements referred to in the Federal Financial Management Improvement
Act of 1996. The report includes a disclaimer on information in the CFO’s annual report which was not
subject to audit procedures. The auditors also noted other management and internal control issues that
will be communicated in a separate management letter.

          SBA officials agreed with the findings and recommendations and, in some instances, have
initiated corrective action. The findings and recommendations are subject to review, management
decision, and action by your office in accordance with Standard Operating Procedure 90 15,
Resolution and Follow-Up Procedures on Audit Findings and Recommendations. Please provide us
your proposed management decisions on SBA Form 1824, Recommendation Action Sheet, also attached
within 30 days.

      Should you or your staff have any questions, please contact Victor R. Ruiz, Director,
Headquarters Operations, on (202) 205-7204.

Attachments
                                                                                    Attachment 1
                                                                                     Page 1 of 12

            COTTON & COMPANY LLP
                               CERTIFIED PUBLIC ACCOUNTANTS

              333 NORTH FAIRFAX STREET • SUITE 401 • ALEXANDRIA, VIRGINIA 22314

DAVID L. COTTON, CPA, CFE            MICHAEL W. GILLESPIE, CPA, CFE        ELLEN P. REED, CPA
CHARLES HAYWARD, CPA, CPE            CATHERINE L. NOCERA, CPA              MATTHEW H. JOHNSON,
CPA




Inspector General
United States Small Business Administration


                            INDEPENDENT AUDITOR’S REPORT

        We have audited the U.S. Small Business Administration’s (SBA) statements of financial
position as of September 30, 1997, and 1996, and the related consolidated statements of
operations and changes in net position (the principal statements) for the years then ended.

       •	      For Fiscal Years (FY) 1997 and 1996, the principal statements are

               presented fairly, in all material respects.


       •	      For FY 1997, we found three reportable internal control findings, which
               are described below in the section titled SBA’s Internal Controls; two are
               material weaknesses.

       •	      For FY 1997, we found no material noncompliance with the selected
               provisions of applicable laws and regulations tested. We did, however,
               find that SBA’s financial management systems did not always
               substantially comply with Federal financial management system
               requirements.

       These matters and the scope of our work are discussed in more detail under the following
captions:

       •    Auditors’ Opinion on Principal Statements
       •    SBA’s Internal Controls
       •    SBA’s Compliance with Laws and Regulations
       •    Significant Matters
       •    SBA’s Responsibilities
       •    Auditors’ Responsibilities
       •    Auditors’ Methodology
       •    Disclaimer on Other Information

                                                1

                                                                                        Attachment 1

                                                                                         Page 2 of 12

       •   Management Comments on Audit Results
       •   Report Usage and Distribution

AUDITORS’ OPINION ON PRINCIPAL STATEMENTS

        We have audited the accompanying statements of financial position of SBA as of
September 30, 1997, and 1996, and the related statements of operations and changes in net
position for the years then ended. These financial statements are the responsibility of SBA’s
management. They were prepared in accordance with Office of Management and Budget (OMB)
Bulletin No. 94-01, Form and Content of Agency Financial Statements, as amended by
applicable portions of OMB Bulletin No. 97-01, which is another comprehensive basis of
accounting, as described in Note 1. Our responsibility is to express an opinion on these financial
statements based on our audits.

        We conducted our audits in accordance with generally accepted auditing standards;
Government Auditing Standards issued by the Comptroller General of the United States; and
OMB Bulletin No. 93-06 (as amended), Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform our audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

       In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of SBA as of September 30, 1997, and 1996, and the results of
operations and changes in net position for the years then ended in conformity with the basis of
accounting described above.

       We conducted our audits to form our opinion on the principal statements taken as a
whole. SBA’s Annual Report also includes supplementary schedules that show the activity
comprising SBA’s reporting entity. The supplementary schedules are not a required part of the
principal statements.

        The supplementary schedules are presented for purposes of additional analysis rather than
to present the financial position and results of operations and changes in net position of the
individual accounts and funds. These schedules have been subjected to the auditing procedures
applied in our audit of the principal statements and, in our opinion, are fairly stated in all material
respects in relation to the principal statements taken as a whole.

SBA’S INTERNAL CONTROLS

        In planning and performing our audit of SBA’s financial statements for the years ended
September 30, 1997, and 1996, we considered SBA’s internal controls to determine our auditing
procedures for the purpose of expressing our opinion on the financial statements and not to
provide assurance on internal controls. We obtained an understanding of the design of
significant internal control policies and procedures; determined if they had been placed in

                                                  2

                                                                                       Attachment 1
                                                                                        Page 3 of 12
operation; assessed control risk for significant cycles, transaction classes, and account balances;
and performed tests of internal controls.
        SBA management is responsible for establishing and maintaining systems of internal
controls. In fulfilling this responsibility, estimates and judgments by management are required to
assess the expected benefits and related costs of internal control policies and procedures. The
objectives of internal controls are to provide management with reasonable, but not absolute,
assurance that:

1. 	   Transactions are properly recorded and accounted for to permit the preparation of reliable
       financial statements and to maintain accountability over assets.

2. 	   Fund, property, and other assets are safeguarded against loss from unauthorized use or
       disposition.

3. 	   Transactions are executed in compliance with applicable laws and regulations.

         Because of inherent limitations in internal controls, errors or irregularities may occur and
not be detected. Also, projection of any evaluation of internal controls to future periods is
subject to the risk that procedures may become inadequate as the result of changes in conditions
or that the effectiveness of the design and operation of policies and procedures may deteriorate.

        We noted certain matters involving internal controls and their operation that we consider
to be reportable conditions under standards established by the American Institute of Certified
Public Accountants and OMB Bulletin No. 93-06, as amended. Reportable conditions involve
matters coming to our attention relating to significant deficiencies in the design or operation of
internal controls that, in our judgment, could adversely affect SBA’s ability to record, process,
summarize, and report financial data consistent with the assertions of management in the
financial statements.

        The reportable conditions and our recommendations appear below. The computer
security portion of reportable condition No. 3 was also cited in the independent auditors’ report
on the internal control structure dated February 14, 1997, which is the report of Cotton &
Company’s audit of SBA’s FY 1996 and 1995 principal statements.

        A material weakness is a reportable condition in which the design or operation of one or
more of the internal control elements does not reduce to a relatively low level the risk that errors
or irregularities in amounts that would be material in relation to the principal statements being
audited may occur and not be detected within a timely period by employees during the normal
course of performing their assigned functions.

        Our consideration of internal controls would not necessarily disclose all matters relating
to internal controls that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered material weaknesses as defined above.
We consider reportable conditions No. 1 and No. 2 to be material weaknesses.




                                                  3

                                                                                    Attachment 1
                                                                                     Page 4 of 12
       We also noted other matters involving internal controls and their operations that we
consider nonreportable conditions. We will communicate these matters to management in a
separate letter.

1. 	   Subsidy Modeling and Re-Estimating Processes

        SBA’s internal control functions governing the credit reform subsidy modeling and re-
estimating processes need improvement. SBA personnel computed subsidy re-estimates in
January 1998. As part of our audit, we reviewed the re-estimate process and noted substantial
errors in the 7(a), 504, and disaster program re-estimate calculations to be included in the FY
1997 principal statements. For example:

       •	      Incorrect data were used in several re-estimate cash flow spreadsheets,
               including incorrect discount rates.

       •	      Incorrect cell references and formulas occurred in several re-estimate
               spreadsheets.

       •	      Data were incorrectly carried forward to cash flow models from

               underlying spreadsheets.


       These errors resulted in adjustments to the principal statements in excess of $250 million.

       In addition, we noted that few, if any, controls governed the FY 1997 and FY 1998
budget execution subsidy processes that took place in FY 1995 and FY 1996, respectively. For
instance, SBA did not retain the computerized cash flow models for the FYs 1992 through 1997
budget execution rates. The budget execution models are an integral part of performing re-
estimates and should be retained as a matter of routine recordkeeping.

       The conditions noted above resulted from the lack of adequate internal controls over the
subsidy process, coupled by severe time constraints imposed on relatively new staff who had not
previously completed a re-estimate cycle. Responsibility for accumulating and analyzing data,
designing credit subsidy models, and calculating budget estimates and program re-estimates lies
with the Office of the Chief Financial Officer (OCFO). To date, OCFO does not have
documented policies and procedures to govern its credit subsidy process as required by the
General Accounting Office’s (GAO) Standards for Internal Controls in the Federal Government.
Such documentation should identify:

       •	      Internal control objectives.

       •	      Techniques for assuring that objectives will be achieved, including clear
               designations of duties and responsibilities, record retention policies, and
               documentation requirements.

       •	      Each major transaction and event affecting the credit subsidy processes.



                                                 4

                                                                                      Attachment 1

                                                                                       Page 5 of 12

       •	      The transaction flow from source document to final classification in
               financial reports.

        OCFO personnel have expressed a positive attitude toward strengthening the internal
controls over the subsidy process. OCFO personnel advised us of their efforts to improve
internal controls on the subsidy rate process. SBA has developed a process for peer, supervisory,
and contractor reviews of estimates and better audit trails. Because of the timing of the FY 1999
budget process, however, it was only partially implemented for FY 1999 estimates and not
implemented for re-estimates. A quality review process is essential to ensure that the work of
assigned staff is adequately supervised, reviewed, and approved, as required by GAO’s
Standards for Internal Controls In the Federal Government. Such a process would include
reviewing work products at critical points throughout the process as well as a systematic review
of the final product to prevent or detect errors in a timely manner. Key duties and responsibilities
should be adequately separated to provide for independent second reviews of all key work
products to enhance data accuracy.

Recommendations

       We recommend that the OCFO continue to develop internal controls over both its credit
subsidy and re-estimate processes. At a minimum, it should document its policies and
procedures and develop a formalized quality review process. In addition, we recommend that
OCFO ensure that adequate resources and time are available to effectively implement these
controls.

2. 	   Financial Reporting Process

        Improved financial reporting processes are needed at SBA to ensure compliance with the
Government Management Reform Act of 1994 (GMRA), which requires Federal agencies to
submit audited Department-wide financial statements to OMB by March 1. SBA had established
a timetable outlining critical financial information and financial statement completion dates to
allow for the statements to be audited. SBA did not meet its December 15, 1997, deadline for
submitting draft financial statements. Furthermore, when the draft statements were provided,
they contained numerous errors and omissions that were identified by both SBA and the auditors,
resulting in several iterations of the financial statements and underlying financial information.

       The delay in the financial reporting was caused by several factors:

       •	      The agency lacks a comprehensive plan for preparing financial statements,
               including identification of all requirements.

       •	      Fund Balances with Treasury reconciliation adjustments were not

               completed until January 1998.


       •	      Subsidy rate re-estimates were not completed until January 1998.
       SBA posted the above adjustments directly to the financial statements, instead of the
general ledger, to maintain reporting consistency with its FACTS data submitted to Treasury. By
doing so, however, the reporting process was complicated because the adjustments were
                                                 5

                                                                                  Attachment 1
                                                                                   Page 6 of 12
extensive—several hundred million dollars affecting each of the agency’s programs and up to 26
different accounts in each program. Additionally, the adjustments were done hurriedly and not
thoroughly reviewed by SBA before submission to us.

        Further, because of the above factors, additional time was needed for auditing and
reviewing the financial statements to ensure that account balances were properly reported on the
financial statements and footnotes.

        SBA faces a tremendous challenge in FY 1998. SBA’s plan to move its financial
reporting to the Office of Financial Operations (OFO) in Denver coupled with additional
requirements brought on by several new Federal accounting standards increase its need to control
this function. Thus, SBA must implement controls to plan and monitor the reporting process and
ensure that staff is adequately trained. Without improvements in its financial reporting
processes, SBA’s ability to submit its FY 1998 consolidated financial statements by March 1,
1999, is doubtful.

Recommendations

        We recommend that OCFO devote immediate attention to implementing a comprehensive
plan for financial reporting. The plan should identify, in detail:

       •	      Procedures required to acquire documentation and prepare financial
               statements according to an established timetable.

       •	      Individuals who will perform critical functions.

       •	      Deadlines needed for each critical phase of the plan (e.g., documentation
               requests, statement preparation, quality control, and so forth).

       •	      A description of how each of the programs will consolidate into a

               consistent, Agency-wide financial statement presentation.


      We also recommend that all staff assuming financial reporting responsibilities at OFO in
Denver obtain technical training on Federal financial accounting and reporting.

3. 	   Information System Controls

        SBA needs to improve information system controls in the areas of (1) entity-wide
security; (2) access privileges; (3) application development and program changes; (4) service
continuity; (5) data authorization, completeness, and accuracy; and (6) segregation of duties.




                                                6

                                                                            Attachment 1

                                                                              Page 7 of 12

•	   Entity-Wide Security. SBA has not implemented an entity-wide security
     program for its key information system. The OCIO has developed the
     framework, but has not performed necessary risk assessments, prepared
     detailed security plans, identified incompatible duties, and established
     compensating controls for key systems. OCIO stated that, because of a
     lack of resources, it has been unable to fully implement its entity-wide
     security plan. As a result, unauthorized alteration and corruption of data
     could occur and be undetected. OMB Circulars A-130, Management of
     Federal Information Resources, and A-123, Internal Control Systems,
     require agencies to implement comprehensive entity-wide security
     programs.

•	   Access Privileges. Computer programmers had unnecessary privileges
     that permitted remote access to Loan Accounting System (LAS)
     production data and programs. This increased the risk that unauthorized
     activities and transactions could occur without detection. Information
     systems standards require that programmer access be held to an absolute
     minimum. During the audit, OCIO reviewed access needs and reduced the
     access privileges of 25 individuals.

•	   Application Development and Program Changes. SBA implemented
     and is installing software applications without formal certification and in
     the absence of agency-wide standards for non-mainframe application
     development. The Surety Bond system was put into production prior to
     certification, and field offices were developing microcomputer
     applications without standards to ensure that the systems would (1) meet
     user needs; (2) provide useful, reliable, and accurate information; and (3)
     protect agency interests.

•	   Service Continuity. SBA does not have service continuity plans in place
     for all of its systems. OCIO is developing disaster recovery plans to
     address disruption of all agency systems, but SBA’s contract for Federal
     Financial System data processing does not address this issue. Should this
     facility incur a disaster, SBA would suffer significant disruptions to key
     business activities. OMB Circulars A-130 and A-123 require agencies to
     take steps necessary to minimize risks that impact their ability to meet
     critical mission functions.

•	   Data Authorization, Completeness, and Accuracy. Quality assurance
     controls for major applications do not ensure data accuracy, reliability, and
     completeness. For example, loan disbursement amounts and balances
     differed among the Data Communication System, Automated Loan
     Control System, and Loan Accounting System. In addition, data-entry
     edits did not preclude a $26,500 charge off of accrued interest on an
     account that did not have accrued interest or a change in loan status to
     “Paid-in-Full” on a loan with an approximate $58,000 outstanding
     balance. In other instances, nonfinancial borrower-related information
                                       7

                                                                                       Attachment 1
                                                                                        Page 8 of 12
               was missing or inaccurate. Although our exceptions to this nonfinancial
               information do not affect the financial statements directly, this missing or
               inaccurate information weakens SBA’s ability to collect on loans and
               recover collateral.

       •	      Segregation of Duties. Although OCIO has established a policy to
               prevent field office security officers from having conflicting and
               incompatible duties in 4 of 17 offices surveyed, the security officer is also
               a liquidation supervisor. This creates a segregation of duties issue,
               because the same individual has access both to user passwords and
               identifications and has access and control over liquidation documents.
               OCIO and SBA field offices share security responsibility for the LAS.

       The Chief Information Officer agreed that improvements are needed in the agency’s
information systems controls, but stated that his office does not have the necessary resources.

Recommendations

       We recommend that:

1.	    The Chief Information Officer request that (a) priority attention be given to his request for
       resources to develop and implement the agency-wide security program and application
       development standards and (b) interagency agreements and contracts for data processing
       administered by other program offices be submitted for his review to ensure that security
       and business continuity issues are addressed.

2.	    As resources become available, the Chief Information Officer implement the agency-wide
       security program and application development standards in accordance with OMB
       Circulars A-123 and A-130.

3.	    The Chief Information Officer and Chief Financial Officer periodically review
       programmer access privileges, maintain them at the lowest possible level, and require
       supervisory review of all emergency program fixes (actual program instructions) within
       48 hours.

4.	    The Chief Information Officer develop guidance and requirements for SBA program
       offices to identify incompatible positions and ensure adequate segregation of duties.

SBA’S COMPLIANCE WITH LAWS AND REGULATIONS

        Compliance with laws and regulations applicable to SBA is the responsibility of SBA
management. As part of obtaining reasonable assurance about whether SBA’s principal
statements are free of material misstatement, we performed tests of SBA’s compliance with
certain provisions of applicable laws and regulations. Noncompliance with such provisions
could have a direct and material effect on the determination of financial statement amounts. We
also tested certain other laws and regulations specified in OMB Bulletin 93-06, as amended,


                                                 8

                                                                                 Attachment 1
                                                                                  Page 9 of 12
including the requirements referred to in the Federal Financial Management Improvement Act of
1996 (FFMIA).

       The results of our tests of compliance with the laws and regulations described in the
preceding paragraph disclosed no instances of noncompliance that would be reportable under
Government Auditing Standards or OMB Bulletin 93-06, as amended, except as described below.
The objective of our tests was not, however, to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion.

      We noted certain immaterial instances of noncompliance that we will report to SBA
management in a separate letter.

        Under FFMIA, we are required to report whether the agency’s financial management
systems substantially comply with (1) Federal financial management system requirements,
(2) applicable accounting standards, and (3) the United States Standard General Ledger at the
transaction level. To meet this requirement, we performed tests of compliance using the
implementation guidance for FFMIA issued by OMB on September 9, 1997.

       The results of our tests disclosed instances, described below, in which SBA’s financial
management systems did not substantially comply with requirements 1 and 2 in the preceding
paragraph.

Documentation of Processing Instructions

        OCFO does not have documented policies and procedures to govern its credit subsidy
process. OMB Circular A-127 (revised), Financial Management Systems, requires agency
financial management systems and processing instructions be clearly documented in hard copy
or electronically. The condition and recommended actions are contained in this report under the
section titled SBA’s Internal Controls. We recommend that management complete corrective
actions by March 1, 1999.

Timely Financial Information

        OCFO did not provide financial information and draft financial statements to its auditors
on a timely basis. GMRA requires agencies to submit audited financial statements to OMB by
March 1. This condition and our recommended actions are contained in this report under the
section titled SBA’s Internal Controls. We recommend that management complete corrective
actions by March 1, 1999.

Entity-Wide Security

        The OCIO has not implemented an entity-wide security program. OMB Circulars A-127
(revised) and A-130 require agencies to implement comprehensive entity-wide security
programs. This condition and our recommended actions are contained in this report under the
section titled SBA’s Internal Controls. We recommend that management complete corrective
actions by March 1, 2000.


                                                9

                                                                                    Attachment 1

                                                                                    Page 10 of 12

SIGNIFICANT MATTERS

        In this report under the section titled SBA’s Internal Controls, we identified three
reportable conditions. We compared these conditions with SBA’s 1997 FMFIA report dated
January 13, 1998, and found that these three conditions were not presented in that report.
Therefore, we are reporting this conflict between SBA’s most recent FMFIA report and the
results of our evaluation of SBA’s internal controls, in accord with OMB Bulletin No. 93-06, as
amended.

SBA’S RESPONSIBLILTIES

       SBA’s management is responsible for:

       •	      Preparing the annual principal statements in conformity with the basis of
               accounting described in Note 1.

       •	      Establishing, maintaining, and assessing the internal controls to provide
               reasonable assurance that the broad control objectives of FMFIA are met.

       •	      Complying with applicable laws and regulations.

AUDITORS’ RESPONSIBLITIES

        Our responsibility is to express an opinion on the principal statements based on our
consideration of SBA’s internal controls and our audit procedures. We are also responsible for
testing compliance with selected provisions of laws and regulations and for performing limited
procedures with respect to other information appearing in SBA’s Annual Report.

AUDITORS’ METHODOLOGY

       To fulfill these responsibilities, we:

       •	      Examined, on a test basis, evidence supporting the amounts in SBA’s
               principal statements and related disclosures.

       •	      Assessed the accounting principles used and significant estimates made by
               management in the preparation of the principal statements.

       •	      Evaluated the overall presentation of the principal statements.

       •	      Obtained an understanding of the internal controls related to safeguarding
               assets, compliance with laws and regulations including execution of
               transactions in accordance with budget authority, and financial reporting.

       •	      Tested compliance with selected provisions of laws and regulations that, if
               not complied with, could directly and materially affect the principal
               statements.
                                                10

                                                                                    Attachment 1

                                                                                    Page 11 of 12


       •	      Tested management processes for evaluating and reporting on internal
               controls and accounting systems as required by FMFIA by comparing [in
               accord with OMB Bulletin No. 93-06, as amended, paragraph 6.a(4)]
               SBA’s most recent FMFIA report with the results of our evaluation of
               SBA’s internal controls.

       •	      Assessed whether the other information in SBA’s Annual Report and the
               manner of its presentation are materially consistent with the information in
               the principal statements taken as a whole.

DISCLAIMER ON OTHER INFORMATION

        Our audits were made for the purpose of forming an opinion on the principal statements
taken as a whole. The principal statements are contained in SBA’s Annual Report, which also
contains sections titled Message From the Administrator, Executive Summary, Agency
Accomplishments, Message From the Chief Financial Officer, Agency Overview, and SBA
Program Description and Analysis. These sections contain a wide range of information presented
for purposes of additional analysis. Some of this information is also required by OMB Bulletin
No. 94-01.

       The information in these sections is not part of the principal statements and has not been
subjected to the auditing procedures applied in the audits of the principal statements.
Accordingly, we express no opinion on the information in these sections.

MANAGEMENT COMMENTS ON AUDIT RESULTS

       Management followed up with written replies from both OCFO and OCIO dated February
27, 1998. These replies, reproduced as attachments, are responsive to our findings and indicate
that management will provide a detailed corrective action plan addressing each item.




                                                11

                                                                                    Attachment 1

                                                                                    Page 12 of 12

REPORT USAGE AND DISTRIBUTION

        This report is intended solely for the information and use of SBA’s Inspector General and
management and should not be used for any other purpose. This restriction is not intended to
limit the distribution of this report which, upon acceptance by SBA, is a matter of public record.


                                     COTTON & COMPANY, LLP




Alexandria, Virginia
February 27, 1998




                                                12

                                                        ATTACHMENT 3
                                  REPORT DISTRIBUTION

Recipient                                                      Copies

Administrator                                                  1

Deputy Administrator                                           1

Associate Deputy Administrator for                             1
 Management & Administration

Associate Administrator for Field Operations                   1

Associate Administrator                                        1
 Office of Congressional & Legislative Affairs

Associate Administrator                                        1
 Office of Financial Assistance

Chief Information Officer                                      1

Chief Financial Officer                                        1

General Counsel                                                2

General Accounting Office                                      2
